NO. 20-1523
__________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
ROLANDO CRUZ, JR.,
MARC HERNANDEZ, and
ROSCOE VILLEGA,
Petitioners
vs
UNITED STATES OF AMERICA,
Respondent
__________________________________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
__________________________________________________________________
BRIEF OF RESPONDENT, DOUGLAS KELLY, IN
SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
__________________________________________________________________

Richard F. Maffett, Jr., Esquire
PA35539
Supreme Court ID No. 185853
2201 North Second Street
Harrisburg, PA 17110
(717) 233-4160
Attorney for Respondent, Douglas Kelly

QUESTIONS PRESENTED
I. In assessing whether a constitutional error that is both structural and
obvious warrants reversal on plain error review, can the potential costs of retrial
outweigh the public interest in enforcement of fundamental rights?
II. How is the quantity of controlled substances “involved” in a drug
distribution determined for purposes of sentencing for conspiracy under 21 U.S.C.
846, when the offense of distribution is the object of the conspiracy?

i

LIST OF ALL PARTIES
Petitioners herein are Rolando Cruz, Jr., Marc Hernandez and Roscoe
Villega. This brief is filed by Respondent, Douglas Kelly, who is designated as a
Respondent under this Court’s Rule 12.6, because: Rolando Cruz, Jr., Marc
Hernandez, Roscoe Villega and Douglas Kelly were consolidated Co-Appellants
before the Third Circuit Court of Appeals below; were also Co-Defendants during
jury trial in the Middle District of Pennsylvania; and Douglas Kelly did not join
Cruz, Hernandez and Villega in this Court as Petitioners. Instead, Respondent,
Douglas Kelly, filed his own Petition docketed before the Supreme Court at No.
20-7868, raising separate, but similar, issues to Petitioner’s questions. By filing
this Respondent’s Brief, Douglas Kelly seeks to join the issues raised by Rolando
Cruz, Jr., Marc Hernandez, and Roscoe Villega, in addition to the issues raised by
Kelly separately.

ii

TABLE OF CONTENTS
Page
Question Presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Related Proceedings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Authorities.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional and Statutory Provisions Involved. . . . . . . . . . . . . . . . . . . . . . 2
Statement Of The Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Reasons For Granting The Writ. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Certification of Bar Membership, Identical Text, Virus Check and Word Count
Certificate of Service

iii

TABLE OF AUTHORITIES CITED
Cases

Pages

Alleyne v United States, 570 U.S. 99, 133 S.Ct. 2151 (2013). . . . . . . . 18,19,20
Arizona v Fulminante, 499 U.S. 279 (1991).. . . . . . . . . . . . . . . . . . . . . . . . . . 10
Gomez v United States, 490 U.S. 858 (1989). . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Neder v United States, 527 U.S. 1 (1999).. . . . . . . . . . . . . . . . . . . . . . . 7,9,10,11
Presley v Georgia, 558 U.S. 209 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7,13
Press-Enter. Co. v Super. Ct. of Cal., 464 U.S. 501 (1984). . . . . . . . . . . . . . . 14
Puckett v United States, 556 U.S. 129 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . 9
Rosales-Mireles v United States, 138 S.Ct. 1897 (2018). . . . . . . . . . . . . . . . . 11
State v Brightman 122 P.3d 150 (Wash. 2005).. . . . . . . . . . . . . . . . . . . . . . 15,16
State Of North Dakota v Martinez, 2021 ND 42 (ND 2021). . . . . . . . . . . . 15,16
State v Schierman, 438 P.3d 1063 (2015).. . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Strickland v Washington, 466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v Gonzalez-Lopez, 548 U.S. 140 (2006). . . . . . . . . . . . . . . . . . 10
United States v Gupta, 699 F.3d 682 (2nd Cir. 2011). . . . . . . . . . . . . . . . . 11,13
United States v Marcus, 560 U.S. 258 (2010). . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v Negron-Sostre, 790 F.3d 295 (1st Cir. 2015). . . . . . . . . . . . 11,12
United States v Olano, 507 U.S. 725 (1993).. . . . . . . . . . . . . . . . . . . . . . . 4,8,12
iv

United States v Rowe, 919 F.3d 752 (3d Cir. 2019).. . . . . . . . . . . . . . . . . . 18,19
United States v Syme, 276 F.3d 131 (3rd Cir. 2002). . . . . . . . . . . . . . . . . . . . . 14
United States v Williams, 739 F.2d 297 (7th Cir. 1984). . . . 1,3,5,6,10,14,18,19
Waller v Georgia, 467 U.S. 39 (1984). . . . . . . . . . . . . . . . . . . . . . . . . . . 7,12,17
Weaver v Massachusetts, 137 S.Ct. 1899 (2017). . . . . . . . . . . . . . . . . . . . 7,8,15
Constitutional Provisions
U.S. Constitution, 6th Amendment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4,7,13,16
Statutes
18 U.S.C. 1962(d). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,18,19
18 U.S.C. 1963(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
21 U.S.C. 841(a)(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,6,18,19
21 U.S.C. 846.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,6,18

v

BRIEF OF RESPONDENT, DOUGLAS KELLY
IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI OF ROLANDO CRUZ, JR.,
MARC HERNANDEZ AND ROSCOE VILLEGA
Respondent, Douglas Kelly, suggests that this Court grant the Petition For A
Writ Of Certiorari seeking to review the judgment and order of the United States
Court of Appeals for the Third Circuit as filed by Petitioners, Rolando Cruz, Jr.,
Marc Hernandez, and Roscoe Villega.
STATEMENT OF THE CASE
By Second Superseding Indictment, Petitioners, Rolando Cruz, Jr., Marc
Hernandez, and Roscoe Villega, together with Respondent, Douglas Kelly, and 17
others were charged with racketeering conspiracy, drug trafficking conspiracy and
drug trafficking. The indictment alleged a conspiracy involving numerous
individuals over a 12 year period, between 2002 and 2014, who were accused of
engaging in drug trafficking and violence in a region of York, Pennsylvania called
the “Southside.” Cruz, Hernandez, Villega, Kelly and eight of their CoDefendants proceeded to a consolidated trial. (United States v Williams, 974 F.3d
320,335 (2020))
On the eve of trial, the District Court issued an order closing the courtroom
during jury selection. The Order stated:

1

AND NOW, on this 18th day of September, 2015, IT IS HEREBY
ORDERED THAT due to courtroom capacity limitations, only (1)
court personnel, (2) defendants, (3) trial counsel and support staff,
and (4) prospective jurors shall be allowed into the courtroom during
jury selection. No other individuals will be present except by express
authorization of the Court. (Id. , at 337.)
Neither the Government nor any defense counsel requested this order, nor
did the District Court request their input. The District Court closed the courtroom
to the public for jury selection without determining whether it was necessary, or if
there were alternatives. None of the defendants objected to the Order. Voir dire
then took place for two (2) days. (Id., at 337-338).
Cooperating co-defendant Cordaress Rogers testified that, in the early years
just after 2002, he received an aggregate of one (1) kilogram of crack from each of
Hernandez, Kelly and Cruz. There was trial testimony that in early 2002, codefendants Cruz, Hernandez and Kelly supplied crack to co-defendants Maurice
Atkinson and Tyree Eatmon. A few years later co-defendant Anthony Sistrunk
began selling drugs. By that time, Cruz, Hernandez and Kelly had been
incarcerated, but Atkinson, Eatmon, Sistrunk, and others began collectively to
traffic in large quantities of crack. Their profits were all earned separately, but the
men sometimes bought or fronted drugs among each other. By 2012, Cruz and
Hernandez were still supplying substantial amounts of crack, and Kelly was

2

present for some of these transactions. In early 2014, Villega’s floormate at a
halfway house worked with him to sell heroin. When police later searched the
house, they found approximately 13.5 grams of heroin and 61 grams of crack.
(Id., at 370-371, 373) However, “[i]t is undeniable that the drug dealers operating
on the South Side during the indictment period did not constitute a gang on the
order of the Bloods or Crips. Nor was this a trafficking operation to rival the
‘Ndrangheta.” (Id., at 370)
At the conclusion of trial, Cruz, Hernandez, Villega, Kelly and their codefendants were convicted. Kelly was convicted of: Count 1, Racketeering
Conspiracy, in violation of 18 U.S.C. 1962; Count 2, Conspiracy To Distribute
Controlled Substances, in violation of 21 U.S.C. 846; and Count 3, Distribution of
Controlled Substances, in violation of 21 U.S.C.841(a)(1). The jury rendered its
verdicts by considering only the amount of drugs involved in the conspiracy as a
whole. (United States v Williams, supra., at 367) Cruz, Hernandez, Kelly and five
Co-Defendants had drug quantities of five (5) kilograms or more of powder
cocaine and 280 grams or more of crack cocaine attributed to them, thus raising
their mandatory minimum term of imprisonment to 10 years and the maximum
term to life. See 21 U.S.C. 841(b)(1)(A); (United States v Williams, supra., at

3

360) Cruz, Hernandez and Kelly were sentenced to life imprisonment. (Id., at 339)
On appeal, Cruz, Hernandez, Villega, Kelly and their co-appellants
challenged the courtroom closure and the wrongful aggregation of drug amounts,
among other issues. However, the Third Circuit denied their appeals. (Id., at 380)
By a 2-1 Decision, the Third Circuit concluded that the District Court’s error in
closing the courtroom for jury selection did not warrant reversal of the convictions
of Cruz, Hernandez, Villega, and/or Kelly and the granting of a new trial. (Id., at
345-348) The Third Circuit ruled that the District Court’s closure of the
courtroom was a structural error, in violation of the Sixth Amendment right to a
public trial of Cruz, Hernandez, Villega and Kelly. They acknowledged that a
structural error is among a limited class of fundamental constitutional errors that
by their very nature affect substantial rights and cannot be disregarded. The Third
Circuit opinion stated: “As a result, in determining the availability of a remedy, no
further inquiry may be necessary beyond the fact of the violation itself: the
injured parties are entitled to ‘automatic reversal.’ (Id., at 340)
Because no defendant had objected, the Third Circuit reviewed for plain
error. They applied the four-part inquiry established in United States v Olano, 507
U.S. 725,732 (1993). There must: (1) be an error; (2) that is plain; (3) affects
substantial rights; and (4) seriously affects the fairness, integrity or public

4

reputation of judicial proceedings. Id. The Government conceded that the District
Court committed error, and that the error was plain. (United States v Williams,
supra., at 340-341)
The majority Third Circuit opinion declined to address Olano’s third prong,
whether the very fact of a structural error affects substantial rights. (United
States v Williams, supra., at 341) In considering the fourth prong of Olano, the
majority ruled that, even when there is structural error, a new trial is not automatic,
but the error is to be evaluated in the context of the unique facts of the case as a
whole to see if the error warrants remedial action, considering the costs to the
fairness, integrity and public reputation of the judicial proceedings that would
result from allowing the error to stand. (United States v Williams, supra., at 341345) Ultimately, the majority opinion concluded the District Court’s error did not
warrant reversal of appellants’ convictions and remand for a new trial. (Id., at
345-348)
The dissenting opinion pointed out it is illogical to classify an error as
structural because it affects substantial rights, but then conclude it did not affect
these appellants’ substantial rights. The dissent suggested that prejudice should be
presumed, and stated that the substantial rights prong had been satisfied. The
dissenting opinion condemned the majority balancing test, or cost benefit analysis,

5

as improper and unjust because the public trial right is a fundamental right. (Id., at
384-386)
In regard to the arguments involving improperly aggregating drug amounts
from individual sales, the Third Circuit acknowledged that the jury was
improperly charged on an aggregation theory. The Third Circuit conceded that the
evidence was insufficient to support Count II (Conspiracy in violation of 21
U.S.C. 846) and Count III (Distribution of Controlled substances in violation of 21
U.S.C. 841(a)(1). (United States v Williams, supra., at 360) However, the Third
Circuit found no effect on the appellants’ substantial rights because their statutury
maximum terms would have been life even if the aggregation errors had not
occurred. (Id., at 374).
Seven appellants, including Cruz, Hernandez, Villega and Kelly, filed
Petitions For Rehearing By Panel Or En Banc to the Third Circuit. All were
denied, with the final denial being the Petition For Rehearing of Eugene Rice, on
November 24, 2020. The matter is now before this Honorable Court for
disposition.

6

REASONS FOR GRANTING THE PETITION
I.

This case presents a fundamental question that this Court has
repeatedly noted but declined to decide –whether a structural error by
its nature “affects substantial rights” for purposes of plain error review
-as well as the related, important question whether the potential costs of
retrial, and similar practical considerations, can outweigh the harm to
the integrity and reputation of the courts that results from ignoring
blatant violations of well-established constitutional rights.
A. Important Questions Of Federal Law Not Settled By This Court
The Sixth Amendment right to a public trial was extended to voir dire of

prospective jurors in Presley v Georgia, 558 U.S. 209, 213 (2010). This Court has
classified courtroom closure as a structural error that generally entitles the
defendant to automatic reversal. Weaver v Massachusetts, 137 S.Ct. 1899,1905
(2017) (plurality opinion); Waller v Georgia, 467 U.S. 39 (1984).
A structural error is a limited class of fundamental constitutional errors that
are so intrinsically harmful as to require automatic reversal without regard to their
effect on a trial’s outcome. Such errors infect the entire trial process and
necessarily render a trial fundamentally unfair. Neder v United States, 527 U.S. 1,
8-9 (1999) An open courtroom during jury selection is fundamental to protecting
defendants’ rights to a jury free from prejudice and ensuring public confidence in
the administration of justice. See Gomez v United States, 490 U.S. 858,873
(1989)
7

An instance where this Court has ruled that a structural error involving
erroneous courtroom closure did not automatically lead to reversal was in
Weaver v Massachusetts, supra. However, in Weaver, the issue was not raised
until collateral review, which required a different standard of review. Applying
the standard for ineffective assistance of counsel set by Strickland v Washington,
466 U.S. 668,687 (1984), a plurality of this Court concluded that the petitioner did
not demonstrate prejudice as required for a new trial. Weaver v Massachusetts,
supra., at 137 S.Ct. 1910-1913. However, this Court has never addressed the issue
in the instant case, whether a structural error requires the remedy of a new trial
when the error is raised for the first time on direct appeal.
Because Petitioners did not object at trial to the closure of the courtroom for
voir dire, but raised the issue on direct appeal, the standard of review is plain
error. United States v Olano, 507 U.S. 725,736 (1993) requires that four prongs
be satisfied in order for a new trial to be granted under plain error review.
Petitioners must show that: (1) there was an error, (2) it was clear or obvious, (3) it
impacted substantial rights, and (4) seriously affected the fairness, integrity or
public reputation of judicial proceedings. Id., at 736.
Olano’s third, substantial rights, prong typically requires a showing of
prejudice. The opinion in Olano acknowledged that there may be a special

8

category of forfeited errors that can be corrected regardless of their effect on the
outcome. Id., 507 U.S. at 735. A structural constitutional error, such as the denial
of a public trial during voir dire proceedings, should be corrected regardless of
prejudice on plain error review. See Neder v United States, supra. However, this
Court has not yet resolved the issue of whether structural errors automatically
satisfy the third prong of Olano. See: United States v Marcus, 560 U.S. 258,263
(2010); Puckett v United States, 556 U.S. 129,140 (2009)
In summary, Certiorari should be granted to finally resolve the important
questions of: (1) Whether a structural error requires the remedy of a new trial
when the error is raised for the first time on appeal, and (2) do structural errors
automatically impact substantial rights, thereby satisfying the third prong of
Olano?
B. Conflict With Relevant Decisions Of This Court
This Court has consistently ruled that structural errors generally result in the
reversal of a conviction because they are so intrinsically harmful as to require
automatic reversal without regard to their effect on the outcome. Neder v United
States, supra., 527 U.S., at 7. Defendants have not been required to make a
specific showing of prejudice when claiming a structural error on direct review
because they would be forced to engage in a “speculative inquiry into what might

9

have occurred in an alternative universe.” United States v Gonzalez-Lopez, 548
U.S. 140,148-150 (2006)
In the instant case, the Third Circuit ruled that Cruz, Hernandez, Villega,
Kelly and their co-appellants were not entitled to a new trial because they did not
meet Olano’s fourth prong, that the error seriously affected the fairness, integrity
or public reputation of judicial proceedings. (United States v Williams, supra., at
342,344-348) In doing so, the Third Circuit Majority erred by engaging in a costbenefit analysis to justify not correcting the public trial structural error violation.
(Id., at 345-348) The Majority analysis mistakenly relied on cases that consider
errors reviewed for harmlessness. ( Id., at 344-345)
Past decisions of this Court have ruled that harmless error review is not
appropriate for structural violations. United States v Gonzalez-Lopez, supra., at
150-152; Neder v United States, supra., at p 7-9; Arizona v Fulminante, 499 U.S.
279, 310 (1991). Structural errors defy analysis by harmless error standards
because they affect the framework within which the trial proceeds, and are not
simply an error in the trial process itself. United States v Gonzalez-Lopez, supra.,
at 148. Such trials “cannot reliably serve its function as a vehicle for
determination of guilt or innocence, and no criminal punishment may be regarded
as fundamentally fair.” Arizona v Fulminante, supra. As a result, this Court has

10

ruled that structural errors are so intrinsically harmful as to require automatic
reversal. Neder v United States, supra., at 7-8.
As this Court stated in Rosales-Mireles v United States, 138 S.Ct.
1897,1908 (2018): “...the public legitimacy of our justice system relies on
procedures that are ‘neutral, accurate, consistent, trustworthy, and fair,’ and that
‘provide opportunities for error correction’‘...(W)hat reasonable citizen wouldn’t
bear a rightly diminished view of the judicial process and its integrity if courts
refused to correct obvious errors of their own devise...”
Because the reported Third Circuit decision in the instant case is in conflict
with the aforesaid past precedents of this Court, Certiorari should be granted to
resolve their erroneous reasoning.
C. Conflict With Decisions of Other United States Court Of Appeals
And Third Circuit Precedent On The Same Issue
The decision of the Third Circuit in the instant case, refusing to grant Cruz,
Hernandez, Villega, and Kelly a new trial despite structural error involving denial
of a public trial during voir dire, is in error because it is contrary to decisions of
the First Circuit Court of Appeals and the Second Circuit Court of Appeals
addressing the same issue. United States v Negron-Sostre, 790 F.3d 295 (1st Cir.
2015); United States v Gupta, 699 F.3d 682 (2nd Cir. 2011)

11

1. First Circuit Court of Appeals
In Negron-Sostre, family members of the defendants were excluded from
the courtroom during jury selection. No defense counsel objected during trial. The
issue was first raised on direct appeal. United States v Negron-Sostre, supra., at
299-300,302-304. Applying the Olano plain error analysis, the First Circuit panel
found that the courtroom was closed, and that the closure was clear and obvious
error, satisfying the first two prongs of plain error analysis. Id., at 305.
The First Circuit in Negron-Sostre also ruled that the third prong of Olano
had been met. They stated that exclusion of the public during the entirety of voir
dire without meeting the test set forth in Waller v Georgia, supra., was a structural
error. The Opinion in Negron-Sostre said that structural errors, as distinguished
from trial errors, infect the entire trial process. As a result, unlike trial rights,
structural rights are basic protections whose precise effects are unmeasurable. Id.,
at 305-306. The Court stated: “Our precedent is unequivocal: structural error in
the form of a denial of the public trial right prejudices a defendant notwithstanding
that the prejudice may be difficult to detect.” Id., at 305.
The First Circuit determined that the error had affected the fairness,
integrity and public reputation of the proceedings as a whole. They ruled that
improper courtroom closure calls into question the fundamental fairness of the
12

trial. The Negron-Sostre decision reasoned that structural error transcends the
criminal process by depriving a defendant of those basic protections without
which a criminal trial cannot reliably serve its function as a vehicle for
determination of guilt or innocence, and no criminal punishment may be regarded
as fundamentally fair. Id., at 306.
2. Second Circuit Court of Appeals
In United States v Gupta, 699 F.3d 682 (2nd Cir. 2011) the Second Circuit
considered whether intentional closure of the courtroom during voir dire violated
the defendant’s right to a public trial. As in the instant case, no party raised a
contemporary objection. While the direct appeal was pending, Presley v Georgia,
130 S.Ct. 721,724 (2010) was decided; and the issue was added. United States v
Gupta, supra., at 685-687. The Second Circuit in Gupta ruled that the trial court’s
intentional, unjustified closure of the courtroom for the entirety of voir dire
violated the defendant’s Sixth Amendment right to a public trial and granted a new
trial, despite no objection at trial. Id., at 690.
The Second Circuit in Gupta pointed out that the knowledge that every
criminal trial is subject to contemporaneous review in the forum of public opinion
is an effective restraint on possible abuse of judicial power. Publicity serves to
guarantee the fairness of trials and to bring the beneficial effects of public scrutiny

13

upon the administration of justice. Id., at 687. The Second Circuit considered
applying a “triviality standard”, but rejected it, stating:
“...the value of openness’ that a public trial guarantees ‘lies in the fact
that people not actually attending trials can have confidence that
standards of fairness are being observed; the sure knowledge that
anyone is free to attend gives assurance that established procedures
are being followed and that deviations will become known” Id., at
689, quoting Press-Enter. Co. v Super. Ct. of Cal., 464 U.S. 501,510
(1984)
It is the openness of the proceeding, not what actually transpires, that
establishes the appearance of fairness so essential to public confidence in the
entire judicial system. The Second Circuit in Gupta stated that given the
exceptional importance of the right to a public trial, excluding the public from all
of voir dire without justification grounded in the record would eviscerate the right
to a public trial entirely. Id.
3. Third Circuit Court of Appeals
In the case at bar, the majority Third Circuit opinion acknowledged that
their failure to grant a new trial was even contrary to past Third Circuit law as set
forth in United States v Syme, 276 F.3d 131,155 n.10 (3d Cir. 2002). (United
States v Williams, supra., at 342) In Syme, the Third Circuit stated that structural
error would constitute reversible error even under plain error review. Id.

14

In summary, the conflict between this decision and precedent from the
United States Court of Appeals for the First and Second Circuits, together with the
failure to follow past holdings of the Third Circuit, makes this a case for which
have the Petition For A Writ Of Certiorari should be granted to decide and finally
resolve the conflicts between the Circuits.
D. Conflict With Other State Courts Of Last Resort
The decision by the Third Circuit in the instant case is in error and conflicts
with decisions of the Supreme Court of North Dakota, as well as the Supreme
Court for the State of Washington. State Of North Dakota v Martinez, 2021 ND
42(ND 2021) (Appendix E); State v Brightman 122 P.3d 150 (Wash. 2005).
1. North Dakota
North Dakota v Martinez, 2021 ND 42 (ND 2021) (Appendix E) involved
the consolidated appeals of Juan Martinez and Everest Moore. In Moore’s case,
the courtroom was closed by the Judge during jury selection. In the case involving
Martinez, the Judge closed the courtroom during testimony of the victim and her
counselor. Defense counsel did not object in either case. The trial court made no
detailed findings regarding the reasons for courtroom closure. Id.
The North Dakota Supreme Court found the violations to the right to public
trial to be structural error, quoting Weaver v Massachusetts, supra., at 137 S.Ct.
15

1907. North Dakota v Martinez, supra., found that the structural error doctrine
ensures certain basic constitutional guarantees that should define the framework of
any criminal trial. As a result, Martinez ruled that errors that affect the entire
adjudicatory framework defy analysis by harmless error standards. They ruled that
because structural errors are immune to harmless error analysis, structural errors
necessarily affect substantial rights. Id.
Ultimately, the North Dakota Supreme Court in Martinez, held that the
exclusion of the public, without a knowing, intelligent, and voluntary waiver or
Waller findings articulated on the record before the closures, negatively affected
the fairness, integrity, and public reputation of their criminal justice system. As a
result, they granted a new trial. Id. Martinez also applied the standard for waiver
of other Sixth Amendment rights and concluded that the right to a public trial can
never be waived by a defendant without a knowing, intelligent, and voluntary
waiver, the same as the standard for waiver of counsel. Id.
2. Washington
In State of Washington v Brightman, supra., the trial judge closed the
courtroom for jury selection because of space and security concerns. Neither party
objected. Id., at 510-511. Brightman was convicted and on direct appeal argued
the trial court violated his right to a public trial by closing the courtroom during

16

jury selection. Id., at 512. The Washington Supreme Court recognized that the
public trial right serves to ensure a fair trial, remind the officers of the court of the
importance of their functions, encourage witnesses to come forward, and to
discourage perjury. Id., at 514, citing Waller v Georgia, supra., at 467 U.S. 46-47.
The Court noted that a closed jury selection process harms the defendant by
preventing their family from contributing their knowledge or insight to jury
selection and by preventing the prospective jurors from seeing the interested
family members. Id. , at 515.
The Washington Supreme Court in Brightman, ruled that failure to lodge a
contemporaneous objection at trial did not effect a waiver of the public trial right.
Because the record did not indicate that the trial court considered Brightman’s
public trial right as required, they remanded for a new trial. Id., at 518; See also:
State v Schierman, 438 P.3d 1063, 1079,1081 (Wash.2015)
In sum, the decision in this case is in error and contrary to established
precedent in at least the states of North Dakota and Washington. As a result, the
Petition For A Writ of Certiorari of Cruz, Hernandez and Villega should be
granted to resolve this conflict and establish uniformity among the states.

17

2.

The Circuits are divided on how a jury should determine the quantity
of drugs necessary to trigger a mandatory minimum or increase a
statutory maximum under 21 U.S.C. 841(b)(1) in a conspiracy case
under Section 846. The Decision of the Court below defies this Court’s
cases by failing even to consider, much less to implement, the statutory
language that answers this important question.
Almost 3½ years after trial, and after all defendants had been sentenced, the

Third Circuit decided United States v Rowe, 919 F.3d 752 (3d Cir. 2019). Rowe
held that Alleyne v United States, 570 U.S. 99, 133 S.Ct. 2151 (2013) requires that
the provisions of 21 U.S.C. 841(b)(1)(A) and (b)(1)(B) attach to each discrete act
of distribution or possession because they specify facts that increase the statutory
penalty, and so, under Alleyne, constitute an element of a distinct and aggravated
crime that must be submitted to the jury. As a result, pursuant to Alleyne, a jury
may not combine the amounts distributed or possessed at discrete instances to find
the drug quantities specified in 21 U.S.C. 841(b)(1)(A) and (b)(1)(B). United
States v Alleyne, supra., at 570 U.S at 116, 133 S.Ct. 2151; United States v Rowe,
supra., at 761.
Petitioners, Cruz and Hernandez, and Respondent Kelly were sentenced to
concurrent terms of life imprisonment on Count 1 (RICO Conspiracy in violation
of 18 U.S.C. 1962(d) and Count 2 (drug Conspiracy in violation of 21 U.S.C.
846). (United States v Williams, supra., at 339) The maximum penalty for
violation of RICO conspiracy is 20 years, unless the conviction is based on a
18

racketeering activity for which the maximum penalty is life. Then the maximum
penalty for a RICO conspiracy conviction becomes life imprisonment. 18 U.S.C.
1962(d); 18 U.S.C. 1963(a). In order for the maximum sentence for violation of
drug Conspiracy to be life, the defendant must be responsible for distribution of
greater than five (5) kilograms of cocaine or 280 grams of cocaine base. (21
U.S.C. 841(b)(1)(A)
In the case at bar, the jury was charged on an aggregation theory of 21
U.S.C. 841(a)(1). The Third Circuit conceded that the aggregation error occurred
on Counts 2 and 3. (United States v Williams, supra., at 360) The Third Circuit
did not find as a matter of fact that any evidence was offered at trial of any
distribution or agreement to distribute more than five (5) kilograms of cocaine nor
more than 280 grams of crack cocaine in any single discrete transaction. As a
result, Petitioners Cruz, Hernandez, and Kelly’s life sentences are illegal since
their sentences at Count 1 are dependent on the same mistake about drug quantity
as Counts 2 and 3. By failing to grant Cruz, Hernandez and Kelly relief, the Third
Circuit in this case failed to follow the holdings of United States v Alleyne, supra.,
together with their own precedent in United States v Rowe, supra.
In summary, Certiorari should be granted in this case because the Third
Circuit has decided an important federal question on aggregation of drug

19

quantities for conspiracy and RICO conspiracy in a way that conflicts with the
decision of this Court in United States v Alleyne, supra.
CONCLUSION
WHEREFORE, for all of the reasons set forth above, Respondent, Douglas
Kelly, respectfully states that the Petition For A Writ Of Certiorari of Rolando
Cruz, Jr., Marc Hernandez, and Roscoe Villega should be granted.
Respectfully submitted,
s/Richard F. Maffett, Jr.
Richard F. Maffett, Jr., Esquire
Attorney for Respondent,
Douglas Kelly

20

